                                                                        memorandum
Regional Inspector General
        Pretoria




       DATE:                 August 11 , 2000

       TO:                   Mission Director, USAID/Uganda, Dawn Liberi

       FROM:                 Regional Inspector General/Pretoria, Joseph Farinella

       SUBJECT:                Audit of the Accuracy of USAID/Uganda’s Recipient Audit
                             Universe, Report Number 4-617-00-010-P

       This is the final report on the subject audit. We received your comments to our draft report and
       included them in their entirety in Appendix II of this report. The report contains one
       recommendation on which USAID Uganda has taken action. Therefore, a management
       decision and final action has been reached upon report issuance.

       I appreciate the cooperation and courtesies extended to my staff during the audit.

       Background

       Financial audits of contracts and grants are a primary basis for effective management and
       control of USAID’s program expenditures. These audits are designed to provide Agency
       management reasonable assurance that transactions are properly recorded and accounted for;
       laws and regulations, and provisions of contract or grant agreements are complied with; and
       USAID-financed funds, property and other assets are safeguarded against unauthorized use.

       In response to congressional concerns, USAID has taken an active role in recent years using
       audits as a management tool to improve financial accountability of its programs. During 1991
       and 1992, the Agency revised its standard provisions for its contracts and grants, requiring
       annual audits of non-U.S. organizations disbursing USAID funds of $25,000 or more. The
       threshold was increased to $100,000 in May 1994 and to $300,000 in July 1998.

       In addition, USAID issued a General Notice in April 1992 defining the role of USAID missions
       in obtaining audits of their contracts, grants and cooperative agreements with non-U.S.
       organizations. In May 1996, these requirements were incorporated into Chapter 591 of
       USAID’s Automated Directives System (ADS) which, among other things, requires USAID
       missions to (i) establish an audit management program; (ii) maintain an audit inventory database;
       and (iii) have audits done for non-U.S. grants, contracts and cooperative agreements that meet
       the audit threshold.

       These initiatives are of far reaching consequence in preventing misuse of USAID development
funds and facilitating timely corrective actions by the Agency. Lack of adequate audit coverage
constitutes an unacceptable risk because without such a control mechanism, financial
accountability of program expenditures cannot be reasonably assured.

In March 1995, the Office of Inspector General (OIG) issued an audit report on USAID’s
implementation of the Agency’s 1992 initiative to improve the financial management of its
programs (Report No. 03-000-95-009). The report concluded that most missions had
implemented the general requirements of the financial audit management program and
established audit inventory databases. However, complete coverage was impaired as a result
of obstacles arising from host government restrictions and local audit firm capabilities.

In March 1998, the OIG issued a report on USAID missions’ roles in obtaining audits of their
contracts, grants and cooperative agreements (Report No. 9-000-98-002-F). The report
concluded that 11 of the 14 selected USAID missions generally obtained audits of their
contracts, grants and cooperative agreements as required by ADS Chapter 591. However, a
significant number of required audits were not completed at 10 of those 14 Missions.

In May 1999, OIG management decided to verify the accuracy of USAID missions’
recipient audit universe over a three-year period because lack of audit coverage was
perceived as a high-risk area.



Audit Objective

As part of our FY 2000-audit plan, RIG/Pretoria performed this audit to answer the
following question:

         Is USAID/Uganda’s audit universe accurate and complete and were
         required audits conducted in a timely manner?

The audit scope and methodology are described in Appendix I.
Audit Findings

The audit showed that USAID/Uganda developed and maintained an audit universe that was
accurate and complete. However, required audits were not conducted in a timely manner.
As of September 30, 1999, USAID/Uganda had disbursed $11,741,620 to 21 U.S., 20 non-
U.S. (Ugandan), and 7 international organizations. The table below provides a breakdown of
these disbursements by recipient and type of agreement:



                         U.S.              Non-U.S.           International         Total
                    Organizations        Organizations       Organizations
                 Disbursements and Disbursements and         Disbursements     Disbursements
     Type of     No. Of Recipients No. Of Recipients          and No. Of        and No. Of
    Agreement                                                  Recipients        Recipients
Contracts           $5,440,687      7              0     0            0   0   $5,440,687         7


Grants                 572,223      7       942,954 10         235,316 6        1,750,493 23


Cooperative          1,618,651      7     2,402,499      6             0 1      4,021,150 14
Agreements
Others                          0   0       529,290      4             0 0        529,290        4
      TOTALS        $7,631,561 21         3,874,743 20          235,316 7 $11,741,620 48



These findings are discussed below in detail.

Mission Has Established an Audit
Management System and Developed an
Accurate Audit Universe

USAID/Uganda took the following actions to implement an audit management system in
accordance with the requirements of ADS Chapter 591which included:

•    issuing Mission Orders to provide mission-specific guidance for the audit management
     program, which included detailed guidance to evaluate the control environment and perform
     risk assessments of non-U.S. organizations;

•    establishing a Management Control Review Committee to monitor the status of the
     Mission’s audit program and to assure that its audit responsibilities were carried out;
•   designating an audit management officer to coordinate and monitor the Mission’s financial
    audit program and follow up on implementation of recipient-contracted audit
    recommendations;

•   including required audit clauses and budgeting funds for audits; and

•   maintaining an automated inventory of contracts, grants, and cooperative agreements
    requiring audits, tracking such audits, and following up on the resolution of audit
    recommendations resulting from such audits.

In addition, as part of its reporting requirements under the Federal Managers’ Financial Integrity
Act of 1982, USAID/Uganda directed an evaluation of its system of management controls in
effect during the fiscal year ended September 30, 1999, which included a review of its audit
management system.

The aforementioned actions enabled the Mission to develop an audit universe that was accurate
and reliable. However, as discussed below, required audits were generally not completed in a
timely manner.

Mission Needs to Ensure Timely
Completion of Required Audits

ADS Chapter 591 requires audits to be completed and reports to be submitted to USAID
within nine months from the end of the recipient’s fiscal year. Audits must be done if
disbursements made by USAID to the recipient equal or exceed $300,000 during the
recipient’s fiscal year.

Based on the above criteria, we identified five non-U.S. recipients who needed to have audits.
USAID disbursements to these organizations during their most recent fiscal years amounted to
$3,150,800. Although audits have been initiated for all five recipients, none have been
completed to date. For three of those recipients, the nine-month reporting deadline will not be
met when the final audit reports are submitted. In the case of one recipient, audits have not been
completed for two fiscal years in a row and costs questioned by the auditors for the two fiscal
years total approximately $287,238. However, unless the reports are finalized, the Mission will
not be in a position to assess the allowability of these questioned costs and collect amounts
determined as unallowable.

According to Mission officials, the audits were not completed because: (1) recipient
organizations are often late in initiating the audits, (2) lack of adequate accounting records which
holds up or slows down audit completion and, (3) management problems within the recipient
organization.

Consequently, without timely completion of audits, USAID/Uganda will not be able to take
prompt corrective actions to address questioned costs and management control deficiencies of
recipient organizations. Moreover, the Mission now lacks reasonable assurance if the
disbursements made by USAID (in this case, approximately $3.1 million) to five non-U.S.
organizations were used for their intended purposes.

Recommendation No. 1: We recommend that USAID/Uganda develop and implement
an action plan to ensure that required non-federal audits are initiated in a timely
manner and completed within the time frames established by USAID’s guidelines on
financial audits.


Management Comments and Our Evaluation


The Mission concurred with the audit finding and recommendation. The Mission developed and
implemented an action plan as recommended. In its response to the draft report, the Mission
described the action plan it has implemented to ensure timely audit action in the future and the
status of its FY 00 audit plan. Based on the action taken, a management decision and final
action has been reached on Recommendation No. 1.

The complete text of management comments is included as Appendix II.
                                                                                APPENDIX I



                              SCOPE AND
                             METHODOLOGY




Scope

The audit was performed in accordance with generally accepted government auditing standards
and assessed whether (1) USAID/Uganda’s audit universe was complete and accurate, and (2)
required audits were done in a timely manner.

In an earlier USAID-wide audit titled ‘‘ Worldwide Audit of Selected Missions’ Role in
Obtaining Audits of Their Contracts, Grants and Cooperative Agreements’’, Report No. 9-
000-98-002-F, March 20, 1998, the OIG provided coverage over recipient financial audits
which had been completed as of October 31, 1996. Therefore, we obtained information on
audits completed after that date.

Field work was performed at USAID/Uganda in Kampala, Uganda from March 22 through
March 29, 2000 and covered approximately $3.87 million in USAID disbursements during
fiscal year ended September 30, 1999. The audit scope included:

 (1) reviewing the Mission’s audit management program and related documents,

 (2) interviewing cognizant Mission officials, and

 (3) reviewing the Mission’s automated database of contracts, grants, and cooperative
     agreements and identifying those that require audits

In addition, we obtained information on (1) total disbursements for all grants, contracts and
cooperative agreements (U. S. and non-U.S.) for the recipients’ latest fiscal year corresponding
(as close as possible) to USAID’s fiscal year ended September 30, 1999 and, (2) the number
and amount of grants, contracts and cooperative agreements falling below the audit threshold
of $300,000 to obtain a complete picture of the Mission’s portfolio.

The audit criteria was principally comprised of Chapter 591 of USAID’s Automated Directives
System (ADS) and the OIG’s “Guidelines for Financial Audits Contracted by Foreign
Recipients” (Guidelines), July 1998 edition.
Methodology

The methodology included (1) reviewing the Mission’s audit inventory database system to
determine if it contains the information needed to identify and track required audits, (2)
examining appropriate documentation, and (3) conducting interviews with cognizant officials to
determine whether the Mission has met its responsibilities established by ADS Chapter 591 and
the Guidelines.

To answer our audit objective, we obtained the universe of USAID/Uganda’s grants,
contracts and cooperative agreements and determined the number and dollar amounts of all
agreements with non-U.S. organizations subject to audit coverage at September 30, 1999.
The above information was obtained from the Mission’s contract files and the Mission
Accounting and Control System (MACS) database. We then ascertained whether: (1) such
agreements were included in the Mission’s audit database inventory, (2) required audits
were completed on a timely basis, (3) audit reports were prepared in accordance with
USAID’s guidelines and sent to RIG/Pretoria for desk review, and (4) the agreements
contained the required audit clauses.

We did not audit USAID/Uganda’s MACS database system because of time constraints
and because it was not directly relevant to our audit objective. Also, because of the small
size of our audit universe, we did not use a materiality threshold and considered even one
exception as significant for reporting purposes.
APPENDIX II
    Page 1 of 2
APPENDIX II
    Page 2 of 2
